                                                                  Issue Date
                                                                           March 7, 2012
                                                                  Audit Report Number
                                                                               2012-FW-1005




TO:        Yolanda Chavez
           Deputy Assistant Secretary for Grant Programs, DG

           //signed//
FROM:      Gerald R. Kirkland
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The State of Texas Did Not Follow Requirements for Its Infrastructure and
         Revitalization Contracts Funded With CDBG Disaster Recovery Program Funds


                                    HIGHLIGHTS

 What We Audited and Why

             We audited the U. S. Department of Housing and Urban Development’s (HUD)
             Community Development Block Grant (CDBG) 2008 Disaster Recovery
             assistance for Hurricane Ike and other disasters, administered by the Texas
             Department of Rural Affairs (the State). Our objective was to determine whether
             the State administered HUD’s Disaster Recovery funds used for infrastructure and
             revitalization contracts in compliance with the supplemental appropriations
             requirements, HUD’s policies, and the State of Texas’ Disaster Recovery action
             plan. This is the fifth audit of Texas’ administration of Disaster Recovery funds,
             and it was conducted as part of the Office of Inspector General’s (OIG)
             commitment to HUD to implement oversight of Disaster Recovery funds to
             prevent fraud, waste, and abuse.


 What We Found

             The State did not follow Federal and State requirements and best practices for its
             infrastructure and revitalization professional services and project management
             services contracts. It failed to do so because it disregarded various requirements.
           Specifically, the State (1) improperly procured its professional services and
           project management services contracts, (2) improperly increased the project
           management services company’s contract, (3) included ineligible contract
           provisions, (4) failed to ensure the contract payment type was consistent, (5)
           failed to prevent questionable charges, (6) did not ensure its budgets clearly
           assigned costs according to HUD CDBG cost categories, and (7) did not ensure its
           project management services contract contained specific and quantifiable
           performance measures. As a result, the State paid $9.06 million in questioned
           costs.

           In addition, the State failed to adequately monitor its professional and project
           management services contracts due to staffing cutbacks and disagreements in the
           department originally responsible for overseeing the funds. Therefore, it did not
           review the contractor’s performance or its accounting for, allocation of, or support
           for the eligibility of its costs.

           The Texas General Land Office recognized that the project management services
           contract had problems and terminated it during our audit, which will prevent the
           State from improperly spending more than $75.01 million in Disaster Recovery
           funds.

What We Recommend

           We recommend that HUD’s Deputy Assistant Secretary for Grant Programs
           require the State to (1) repay $919,570 in ineligible markup costs, (2) support or
           repay an estimated $7.59 million in unsupported inflated costs, (3) repay
           $542,477 in unreasonable and unnecessary inflated costs, and (4) document its
           termination of the professional services contract and its deobligation of the funds,
           which will result in $75.01 million in Disaster Recovery funding being put to
           better use. In addition, HUD should require the State to adopt and follow sound
           agency business procedures for its Disaster Recovery-funded procurements and
           payments to ensure they comply with Federal and State policies.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided our discussion draft to the Texas General Land Office and HUD on
           February 13, 2012. We held an exit conference with them on February 27, 2012.
           The General Land Office provided its written response dated February 28, 2012,
           on March 2, 2012, and it generally agreed with the findings. The complete text of



                                             2
the auditee’s response, along with our evaluation of its response, can be found in
appendix B of this report. In addition, HUD provided written comments dated
March 6, 2012, which agreed with the findings. HUD’s written response can be
found in appendix C of this report.




                                 3
                            TABLE OF CONTENTS

Background and Objective                                                               4

Results of Audit
      Finding 1: The State’s CDBG Disaster Recovery-Funded Services Contracts Did      6
                 Not Follow Federal and State Requirements
      Finding 2: The State Failed To Adequately Monitor Its Professional and Project   14
                 Management Services Contracts

Scope and Methodology                                                                  17

Internal Controls                                                                      20

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                   22
   B. Auditee Comments and OIG’s Evaluation                                            23
   C. HUD Comments                                                                     25




                                             4
                      BACKGROUND AND OBJECTIVE

Congress enacted the Consolidated Security, Disaster Assistance, and Continuing Appropriations
Act, 2009 (Pub. Law 110-329), on September 30, 2008. The Act appropriated $6.1 billion
through the Community Development Block Grant (CDBG) program for “necessary expenses
related to disaster relief, long-term recovery, and restoration of infrastructure, housing, and
economic revitalization in areas affected by hurricanes, floods, and other natural disasters
occurring during 2008 for which the President declared a major disaster.” In 2008, Texas’ gulf
coast was severely impacted by three hurricanes and a tropical storm. Texas cited preliminary
unreimbursed damages of $29.4 billion for the 2008 hurricane season. In 2009, Texas received
more than $3 billion in CDBG Disaster Recovery funding authorized by the Act through two
allocation rounds. In the first round of allocations, the U. S. Department of Housing and Urban
Development (HUD) awarded the State $1.3 billion for disaster recovery from Hurricane Ike.

The Governor of Texas appointed the Texas Department of Rural Affairs (the State) as the
overall responsible agency for the Disaster Recovery funds. It had responsibility over the
administration of nonhousing projects. The State had budgeted $661 million for nonhousing
activities as of June 30, 2011. Of that amount, it awarded $591 million to 230 communities.

In October 2008, the State solicited for engineering services for its Disaster Recovery-funded
nonhousing activities. It awarded a contract to HNTB Corporation (contractor) in December
2008 to conduct damage assessments and evaluate the eligibility of approximately 2,300
nonhousing projects. The contract totaled approximately $16.6 million. In July 2009, the State
solicited for a project management services firm for its Disaster Recovery-funded nonhousing
projects. In August 2009, it contracted again with HNTB Corporation to administer the State’s
CDBG Disaster Recovery program and work with its staff, grantees, grant administrators,
environmental service providers, and design engineers involved in the project management of
more than 2,000 nonhousing projects at a contract price not to exceed $68.9 million. In April
2011, the State increased the contract to $144 million, added additional project management
services, and increased the contractor’s oversight duties to approximately 6,000 projects.

On July 1, 2011, the Governor of Texas changed the State agency responsible for the
administration of the Disaster Recovery funds to the Texas General Land Office. The General
Land Office cancelled the professional management services contract on September 1, 2011.

Our objective was to determine whether the State administered HUD’s Disaster Recovery funds
used for infrastructure and revitalization contracts in compliance with the supplemental
appropriations requirements, HUD’s policies, and the State of Texas’ Disaster Recovery action
plan. Specifically, we wanted to determine whether the State (1) used the appropriate
procurement method for soliciting the project management services contractor, (2) awarded
contracts with ineligible contract provisions, (3) ensured its contracts contained specific and
quantifiable performance measures, (4) ensured its project management services contract
included contract budgets which included cost categories as defined by State CDBG rules, and
(5) adequately monitored the contracts.



                                               5
                                      RESULTS OF AUDIT

Finding 1: The State’s CDBG Disaster Recovery-Funded Services
Contracts Did Not Follow Federal and State Requirements
The State did not follow Federal and State requirements and best practices for its infrastructure
and revitalization professional and project management services contracts. Specifically, it (1)
improperly procured its professional services and project management services contracts, (2)
improperly increased the project management services company’s contract, (3) included
ineligible contract provisions, (4) failed to ensure the contract payment type was consistent, (5)
failed to prevent questionable charges, (6) did not ensure its budgets clearly assigned costs
according to HUD CDBG cost categories, and (7) did not ensure its project management services
contract contained specific and quantifiable performance measures. The State failed to follow
requirements and best practices because it disregarded them. As a result, it paid $9.06 million in
questioned costs.

The General Land Office avoided the improper spending of an additional $75.01 million in
Disaster Recovery funds by terminating the project management services contract during our
audit.



    The State Improperly Procured
    Its Professional Services
    Contracts

                  The State improperly procured its Disaster Recovery-funded professional services
                  contracts. It did not follow Federal and State requirements and its best practices
                  to ensure that it procured its two professional services contracts at fair and
                  reasonable prices. The Texas Contract Management Guide required that the State
                  adequately plan its procurements and show how it determined a fair and
                  reasonable price before performing the actual procurement. 1 However, the State
                  was unable to provide sufficient information showing how it planned its two
                  professional services procurements, and it could not show that it had performed
                  analyses to ensure that the prices that it would pay were fair and reasonable. The
                  State indicated that documentation was not available due to staff turnover.

                  The State also did not follow the Federal requirements of Office of Management
                  and Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian
                  Tribal Governments. HUD’s grant required that the State follow this circular,
                  which required that contracts with for-profit businesses follow the Federal
                  Acquisition Regulation. The State’s two professional services contracts did not
                  require the contractor to follow the Federal Acquisition Regulation.
1
     State of Texas Contract Management Guide, chapter 2, Planning and chapter 4, Professional Services


                                                        6
    The State Improperly Increased
    the Second Contract

                  The State improperly increased its project management services contract’s scope
                  of services and cost when it entered into its fourth contract amendment. The
                  amendment increased the maximum contract amount from about $68.99 million
                  to $144 million, significantly increased the services to be provided, and increased
                  the contract’s budget from six cost categories to eight. The State did not follow
                  its own guidance when it executed this contract change. The Texas Contract
                  Management Guide stated

                           “As a general rule, whether a change is material or substantial is a
                           fact question. What is fundamental is the principle that materially
                           changing solicitation specifications after receipt of responses
                           denies an opportunity for others to participate in the solicitation.
                           Therefore, any contract amendments are required to be within the
                           scope of the original contract and the competitive process
                           underlying the original contract.” 2

                  As the changes enacted were both material and substantial, the State could not
                  provide assurance that it properly performed the $75.01 million contract
                  amendment. 3 However, the General Land Office terminated the contract during
                  our audit before it expended funds for amendment 4, which resulted in it avoiding
                  the improper expenditure of the $75.01 million.

    The State’s Contracts Included
    Ineligible Provisions

                  The State’s contracts and contract amendments contained ineligible cost plus a
                  percentage of cost provisions. The two contracts’ budgets included a 10 percent
                  markup on direct expenses and subcontractors’ costs. HUD’s CDBG rules
                  prohibit a cost plus a percentage of cost payment type. 4 The State included the
                  ineligible cost provisions because its request for proposals stated that markups for
                  materials and expenses would be negotiated and its request for qualifications
                  stated that hourly rates, costs, and related services would be negotiated. Thus, the
                  State’s contracts allowed the contractor to budget and invoice using a cost plus a
                  percentage of cost payment type. As shown in table 1, the State’s contracts
                  included almost $4.45 million in ineligible markups, of which the State paid
                  $919,570. The General Land Office avoided paying more than $3.29 million of
                  these ineligible costs by terminating the contract.


2
      State of Texas Contract Management Guide, chapter 7, Contract Administration
3
      $144 million - $68.99 million = $75.01 million
4
      24 CFR (Code of Federal Regulations) 570.489(g)


                                                        7
           Table 1 – Total amount of ineligible markup
                          Contract                 Markup amount          Markup         Markup amount
                                                    in the budget       amount paid        remaining
               Professional services                       $700,783        $467,574                    *
               Project management services               $3,746,084        $451,996           $3,294,088
               Totals                                    $4,446,867        $919,570           $3,294,088
           * The remaining $233,209 markup amount will not be paid as the contract has been completed.


    The State Did Not Ensure the
    Contract Payment Type Was
    Consistent

                  The State did not ensure the contract payment type in the project management
                  services contract matched the solicitation payment type. The solicitation stated
                  that “respondent(s) will be compensated based on a negotiated fee for services
                  completed, with payments to be made on a negotiated schedule and as services are
                  delivered.” According to the State’s policy, a fee for service contract payment
                  type was one in which a fee could be established for a unit of service and
                  payments were made for each unit of service completed. The State provided an
                  example of giving flu shots to patients and stated a unit of service was one flu
                  shot. 5 The State’s contract stated that the contractor would be compensated in
                  accordance with negotiated hourly billing rates set forth in an attachment that
                  listed all of the tasks the contractor would perform. Thus, the contract’s
                  negotiated hourly billing rate by tasks was not a fee for service contract. Instead,
                  the State’s contract contained 11 pages of tasks and the hours allocated for those
                  tasks and direct expenses that the State also would reimburse. Further, the State
                  cannot determine what contract tasks were completed before it paid the
                  contractor.

    The State Allowed the
    Contractor to Bill by Category

                  The State did not require the contractor to bill by detailed tasks. The project
                  management services contract included an attachment, which contained a list of
                  tasks by cost categories. Each task included positions and hours by positions to
                  complete the task. However, the State did not require the contractor to bill by the
                  detailed task. Instead, it allowed the contractor to bill by category and hourly
                  rates, which resembled a time and material payment type. Since the State allowed
                  the contractor to bill in this fashion, it could not determine what tasks the
                  contractor had completed or whether it had overpaid the contractor for any task.




5
      Texas Contract Management Guide, chapter 3, Preparing the Solicitation


                                                         8
    The State Allowed the
    Contractor to Bill Using
    Inflated Amounts

                  The State accepted the contractor’s invoices for both contracts that contained only
                  time and material billing information. By allowing the contractor to bill in this
                  manner, the State paid the contractor on a time and material basis. Reviewing the
                  contractor’s underlying costs showed that the State allowed the contractor to bill
                  using inflated cost amounts. Instead of using its actual labor costs and its
                  approved Federal Acquisition Regulation indirect cost rate of 147 percent, the
                  contractor computed its hourly billing rate by using an average hourly wage rate
                  multiplied by 320 percent. Detailed testing of three invoices showed that the
                  contractor’s invoiced costs exceeded its Federal Acquisition Regulation allowable
                  costs by $542,477, or approximately 23 percent of $2.35 million in labor costs
                  invoiced. 6 As of July 2011, the State had paid the contractor $35.23 million on
                  both contracts. Since the contractor used the same billing method for all of its
                  invoices, we estimated that $8.14 million, or 23 percent of the $35.23 million,
                  represented inflated labor costs. Thus, the State paid $542,477 in unreasonable or
                  unnecessary inflated labor costs for the three invoices reviewed, and more than
                  $7.59 million in inflated labor costs from the other 73 invoices was unsupported.

                  The State allowed these costs because it instructed the contractor to develop
                  hourly rates that included all costs and expenses. However, it did not specifically
                  require the contractor to follow the Federal Acquisition Regulation because the
                  State’s staff was unaware of the requirements. The contractor understood the
                  requirements and admitted it was aware of them. However, it chose not to use
                  them in developing its costs because the State did not require it in the solicitation.

                  Since the Texas General Land Office terminated the contract, it will avoid paying
                  an estimated $10.07 million in remaining inflated labor costs.

The State Did Not Ensure the
Contractor Properly
Categorized Costs

                  The State’s professional management services contract contained multiple cost
                  categories that did not clearly tie to or match HUD’s CDBG cost categories. The
                  CDBG program requirements contain three cost categories: administration,
                  planning, and project delivery. 7 The State’s original contract contained six cost
                  categories that it amended to eight, as shown in table 2.



6
      See the Scope and Methodology Section for an explanation of the testing methodology.
7
      24 CFR 570.489(a)(1)


                                                         9
                 Table 2 – Cost categories by contract
                   Original contract cost categories          Contract amendment 4 cost categories
                   1. Environmental                           1. Application administration
                   2. Engineering                             2. Project delivery facilitators
                   3. Construction management                 3. Environmental
                   4. Project controls                        4. Engineering
                   5. Community outreach                      5. Construction observation
                   6. Programmatic support                    6. Technology
                                                              7. Outreach support
                                                              8. Programmatic support

                 Neither the contract language nor the contract budgets specified how the
                 categories in table 2 would be allocated to the three HUD CDBG cost categories.
                 The State’s omissions allowed the contractor to bill its costs to any HUD cost
                 category. For example, the contractor billed and allocated “Engineering” costs to
                 all three HUD categories, but it did not explain why one category was charged
                 versus another. As a result, the State had no assurance the contractor consistently
                 and properly categorized costs charged to this grant.

    The State’s Contract Lacked
    Specific and Quantifiable
    Performance Measures

                 The State’s project management services contract did not contain specific or
                 clearly defined performance measures. The original contract, executed in August
                 2009, did not contain specific time requirements, goals, or milestones to show
                 when the contractor achieved certain levels of progress. Also, it did not contain
                 any penalties or remedies for failing to complete tasks. The State included some
                 time requirements in amendment 4, which it executed 20 months later. In
                 addition, the amendment required the contractor to submit performance reports,
                 and it included a retainage value if the contractor’s performance fell below 90
                 percent.

                 The Texas Contract Management Guide required the State’s performance
                 specifications be reasonable and clearly outlined how results would be measured.
                 In addition, the Guide required the contract’s statement of work to provide a clear
                 description of the goods or services to be provided. 8

                 The State argued that its contracts contained performance measures. However,
                 both HUD’s monitoring and the State’s contracted internal auditor criticized the
                 State for not having adequate performance measures. Since the State also lacked
                 billing information showing the detailed tasks completed, it could not adequately
                 measure the effectiveness of its Disaster Recovery program. However a review of

8
     Texas Contract Management Guide, chapter 3, Performance Based Specifications vs. Design Specifications &
     Elements of a Deliverable


                                                      10
             its expenditures showed that as of June 30, 2011, the State had spent more than 83
             percent of the available infrastructure and revitalization administrative funds but
             had only spent 15 percent of the project funds.


The General Land Office
Assumed and Canceled the
Contract

             The General Land Office assumed oversight of the project management services
             contract on July 1, 2011, 9 days after our audit started. During the audit, regular
             meetings occurred between the auditors and General Land Office staff to discuss
             the issues and findings. Before September 1, 2011, discussions included (1)
             ineligible markups, (2) excessive rates being paid to the contractor, (3) the lack of
             a contract cost analysis, (4) the lack of supporting documentation for invoices, (5)
             the fact that cost categories did not match HUD CDBG categories, (6) the lack of
             monitoring, and (7) the applicable regulations for contracts awarded under HUD’s
             Disaster Recovery grant program. Further, auditors recommended that the
             contract needed to be redone. On September 1, 2011, the General Land Office
             cancelled the contract. As a result, the State took action to prevent future
             payments for ineligible, unnecessary, unreasonable, or unsupported costs totaling
             more than $75.01 million.

Conclusion

             The State improperly procured and entered into faulty contracts and contract
             amendments. As shown in table 3, the State’s contracts and amendments included
             ineligible provisions and inflated costs, and the contract’s budgets did not match
             the CDBG cost categories. In addition, for the project management services
             contract, the contract payment type was not consistent with the solicitation, the
             contractor did not bill by detailed tasks, and the contract lacked specific and
             quantifiable performance measures.

             The General Land Office terminated the contract during our audit, which will
             prevent more than $75.01 million in funds from being improperly spent.




                                              11
          Table 3 – Total amount of questioned costs and funds to be put to better use
             Cost category          Ineligible     Unsupported         Unreasonable         Funds to be
                                                                      or unnecessary        put to better
                                                                                                 use
          Deobligation of
          improper contract
          amendment                                                                          $75,009,910*
          Ineligible markups          $919,570
          Inflated costs                              $7,599,747             $542,477
          Totals                      $919,570        $7,599,747             $542,477         $75,009,910
        * This amount includes the deobligation of ineligible markups totaling $3,294,088 and inflated costs
        totaling $10,065,836



Recommendations


          We recommend that HUD’s Deputy Assistant Secretary for Grant Programs
          require the State to

          1A. Adopt and follow sound agency business procedures for its Disaster
              Recovery-funded procurements and payments to ensure they comply with
              Federal and State policies.

          1B. Reimburse its Disaster Recovery program from non-Federal funds
              $919,570, which was improperly paid to the contractor for amounts billed
              using the ineligible cost plus a percentage of cost payment method.

          1C. Reimburse from non-Federal funds or provide support for the estimated
              $7,599,747 in unsupported inflated labor costs.

          1D. Reimburse from non-Federal funds or provide support for the $542,477 paid
              for unnecessary and unreasonable inflated labor costs.

          1E. Document its termination of the professional services contract and its
              deobligation of the funds, which will result in $75,009,910 being put to
              better use.




                                                 12
Finding 2: The State Failed To Adequately Monitor Its Professional and
Project Management Services Contracts
The State failed to adequately monitor its professional and project management services
contracts. It did not follow Federal or State monitoring requirements and best practices due to
staffing cutbacks and management disagreements. Since the State allowed its contractor to
assume almost total control of its Disaster Recovery-funded infrastructure and revitalization
program, it should have had a strong monitoring function. However, as the few remaining State
quality assurance staff focused on the timely payment of invoices, it did not perform any
monitoring. As a result, the State did not monitor the contractor to ensure compliance with the
contracts and the applicable Federal and State requirements.




    The State Did Not Perform
    Monitoring

                  From the time it received the Disaster Recovery grant funds until it lost oversight
                  responsibility, 9 the State performed no monitoring of its professional services or
                  project management services contracts. HUD’s CDBG Disaster Recovery rules
                  required the State to have monitoring standards and procedures to ensure program
                  requirements were met. The State had monitoring policies and procedures, but it
                  did not implement them. It did not test or review invoices submitted to determine
                  whether costs were properly allocated or eligible. Also, it did not conduct any site
                  visits to oversee the contractor’s project management services. In addition, it
                  failed to review the contractor’s financial accounting records to ensure that costs
                  billed to the State were supported.


    Management Disagreements
    Negatively Affected the
    Program

                  The State’s executive director and its Disaster Recovery program manager
                  disagreed on key program issues. The State originally planned to staff the $661
                  million Disaster Recovery infrastructure and revitalization program with 41
                  employees, including 6 monitoring positions. After receiving the many initial
                  applications, the program manager requested additional staff. He eventually
                  received approval for and hired 56 employees but stated he still did not have
                  enough staff to conduct oversight. The executive director stated that he felt the
                  Disaster Recovery staff were not productive and were trying to prolong their
                  temporary positions. Since the State had reduced the available amount of
                  administrative and planning funds, and because the executive director felt he had

9
     The Texas Department of Rural Affairs’ period of oversight ran from March 4, 2009, through June 30, 2011.


                                                       13
           lost control of the staff, he decided to assign their tasks to the contractor and
           released most of the staff between November 2010 and February 2011.

The State Granted the
Contractor Program Control

           Since the executive director distrusted the Disaster Recovery employees, he took
           steps, including contract modifications, that allowed the contractor to assume
           almost total control of the program, as contractor staff replaced most of the State’s
           Disaster Recovery employees. The contractor became responsible for oversight
           of the grant and the grant projects, ensuring project completion, the processing of
           payment invoices, and grantee and subcontractor monitoring.

           The State also granted the contractor system access to the State’s contract
           management system, which contained budget, funding, and project management
           information, and, with HUD’s approval, to HUD’s Disaster Recovery Grant
           Reporting (DRGR) system, which contained budget, funding, and reporting
           information. While HUD’s controls prevented the contractor from making or
           approving its own payment voucher request in the DRGR system, it allowed the
           contractor to set-up and amend individual project descriptions, including budgets.
           A State staffer warned the State’s executive director that the contractor should not
           be granted such access, because it allowed the contractor to make changes to the
           State’s and its own budgets, and the system would not maintain a history of such
           changes. The executive director disregarded this warning.

           The executive director’s decision to allow the contractor access to both of these
           systems gave the contractor the ability to adjust budgets and funding without State
           oversight. State employees admitted that they could not determine whether the
           contractor had exceeded the Federal funding caps for HUD’s administration and
           planning cost categories.


The Remaining State Quality
Assurance Staff Focused on
Financial Operations

           Only four quality assurance positions remained after the executive director
           reorganized. Instead of monitoring, the staff focused on financial functions. Staff
           members stated their jobs consisted of ensuring the contractor’s invoices totaled
           accurately and paying the invoices in a timely manner. They did not monitor the
           contract for compliance with HUD requirements and did not ensure costs were
           supported, eligible, and allocated appropriately.




                                             14
Reviews Reported on the State’s
Monitoring Issues

             The State hired an outside firm to perform independent audits of its operations.
             The audit firm found in March 2011 that the State’s staff did not compare
             invoiced costs to the services performed to determine reasonableness. In addition,
             it noted that both the State and the contractor lacked supporting documentation for
             adjustments to services and amounts paid on invoices. It also found in June 2011
             that the State’s staff failed to monitor the project management services contract.
             In its responses to the independent audit firm, the State admitted the issues existed
             and that it was taking actions to address them.

             In October 2010, HUD began performing reviews of the State. In its May 2011
             report, it noted that both the State’s senior staff and the State’s independent
             auditor had concerns regarding contract oversight. It also expressed concerns
             with the State’s reliance on its contractor for program administration and said the
             contractor could not track the progess of administrative expenditures relative to
             project completion. Further, it informed the State that some responsibilities
             should not be ceded to the contractor.


Conclusion

             The State did not adequately monitor its contractor. It did not follow Federal or
             State monitoring requirements and best practices due to staffing cutbacks and
             management disagreements. It granted the contractor significant program and
             system control, but it did not monitor or review the contractor’s performance or
             the contractor’s accounting for, allocation of, or support documenting the
             eligibility of its costs. Without proper monitoring and quality assurance, the State
             lacked assurance that the $661 million in Disaster Recovery funds allocated for its
             infrastructure and revitalization programs would meet the programs’ intended
             purpose.

             In a discussion of the finding with the General Land Office, it agreed that
             monitoring had not occurred and stated it had removed the contractor’s access to
             the various systems. The State told HUD it was aware of the issues and was
             working to address them.




                                              15
Recommendations



          We recommend that HUD’s Deputy Assistant Secretary for Grant Programs
          require the State to

          2A. Implement monitoring plans and procedures, which include reviewing the
              contractor’s performance and invoiced costs to ensure they are eligible,
              necessary, allocable to the program, and adequately supported.

          2B. Verify that it has limited or restricted the contractor’s access to the various
              systems.




                                           16
                          SCOPE AND METHODOLOGY

We conducted our audit at the State’s and the General Land Office’s offices in Austin, TX, and
at the HUD OIG offices in San Antonio and Fort Worth, TX. We performed our audit between
June 2011 and December 2011. The audit generally covered the period from October 2008
through June 2011. However, we expanded the scope of our audit as necessary. To accomplish
our objectives, we

            •   Reviewed the Consolidated Security, Disaster Assistance, and Continuing
                Appropriations Act, 2009. 10
            •   Reviewed HUD’s CDBG and other applicable Federal regulations and
                requirements.
            •   Reviewed the Disaster Recovery grant agreement executed by HUD and the State.
            •   Reviewed the State’s policy and guides for disaster relief programs.
            •   Reviewed the State’s statutes, contracting requirements, and other applicable
                requirements and policies.
            •   Reviewed the State’s professional services solicitations for the infrastructure and
                revitalization program and the two contracts awarded to identify whether the State
                complied with Federal and State procurement requirements.
            •   Analyzed the State’s project management services contract amendments to ensure
                they met the State’s standards.
            •   Obtained a download of the State’s general ledger information for the
                infrastructure and revitalization program that contained data from October 8,
                2008, to July 1, 2011. We also obtained a download of the contractor’s employee
                financial data from August 21, 2009, to July 22, 2011.
            •   Obtained from the State electronic data for three invoices, dated March 5, 2010,
                September 29, 2010, and May 6, 2011.
            •   Performed testing on the computer-processed data obtained from the State and the
                contractor. We determined that the data were sufficiently reliable to meet our
                objective.
            •   Obtained quarterly reports from HUD’s Disaster Recovery Grant Reporting
                system. We compared the information to an electronic download of the State’s
                general ledger for reports issued from April 1 to December 31, 2009. Testing was
                performed to confirm that the information in HUD’s system matched the State’s
                general ledger. We were able to confirm and verify project delivery costs and
                planning costs. However, the State reported $1.1 million more in administrative
                expenses to HUD than it posted to its general ledger, a 17.65 percent difference.
                State staff said the difference was due to timing issues in the allocation of State
                salary costs. As State salary costs were outside the scope of our audit, we limited
                our testing to confirming that the amounts invoiced by the contractor reconciled to
                the amounts paid and reported in the State’s accounting system.



10
     Public Law 110-329


                                                17
             •    Obtained and reviewed all 24 professional services contract invoices and all 52
                  project management services contract invoices paid by the State as of August 5,
                  2011, to determine whether the contractor included ineligible cost plus a
                  percentage of cost markups in the invoices.
             •    Reviewed and matched both the 24 professional services invoices and the 52
                  project management services invoices to the State’s financial vouchers and its
                  general ledger database to verify that the State accurately posted the information
                  to its general ledger. We also reviewed all of the invoices to ensure that the State
                  accurately recorded the reported cost categories of administrative, planning, and
                  project delivery in its general ledger.
             •    Reviewed the 52 project management services contract invoices and compared
                  them to cost and task information in the contracts and amendments to determine
                  whether the State ensured the contractor was billing appropriately.
             •    Selected and reviewed 3 of the 52 invoices from the project management services
                  contract, which totaled $2.35 million of the $29.16 million submitted for payment
                  by the contractor. We selected the three invoices without bias, and they
                  represented different time periods during the contractor’s oversight of the State’s
                  program. As the State received only summary invoices, we requested supporting
                  documentation from the contractor, and it provided labor and direct expenses by
                  invoice in an electronic format for the three invoices. We compared the
                  contractor’s actual labor costs to the invoiced labor. We computed estimated
                  indirect costs, using the contractor’s approved Federal Acquisition Regulation
                  indirect cost rate of 147 percent, multiplied by the actual labor costs for that
                  invoice. For each invoice, we then added the computed actual labor costs and the
                  estimated indirect costs and compared them to the contractor’s invoiced amount
                  to determine the amount of excessive labor costs. We then divided the total
                  amount of the three invoices’ excessive labor costs ($542,477) by the total of the
                  three billed invoices ($2.35 million), which resulted in the 23 percent estimated
                  amount of inflated costs. The contractor billed all of its invoices from the two
                  contracts, using average hourly rates, and stated that it multiplied the total average
                  hourly rate for each position by 320 percent. As a result, we determined that all
                  of its invoices contained inflated costs. To estimate the total inflated amount, we
                  multiplied $35.23 million (the total amount of invoiced labor costs for the two
                  contracts) by the 23 percent average inflated invoice amount to arrive at an
                  estimated $8.14 million total amount of inflated costs. The total amount of
                  inflated costs consisted of the actual $542,477 calculated inflated costs for the
                  three invoices and the estimated $7.59 million for all of the remaining 73 invoices
                  billed. 11
             •    Compared the project management services contract’s cost categories to HUD’s
                  CDBG cost categories in an attempt to reconcile administrative, planning, and
                  project delivery costs.
             •    Reviewed the independent monitoring firm’s internal monitoring reports prepared
                  for the State and HUD’s monitoring reports.

11
     Includes the 52 management services contract invoices and the 24 professional services invoices, less the 3
     invoices reviewed (52 + 24 - 3=73)


                                                         18
           •   Interviewed HUD’s, the State’s, the General Land Office’s, and the contractor’s
               management and staff.
           •   Estimated that the State will put more than $75.01 million to better use by
               terminating the contract and deobligating the funds. The deobligation of the
               funds included $3.29 million in ineligible markups and almost $10.07 million in
               inflated costs remaining in the terminated amount.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               19
                                      INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       •   Effectiveness and efficiency of operations,
       •   Reliability of financial reporting, and
       •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



     Relevant Internal Controls

                    We determined that the following internal controls were relevant to our audit
                    objective:

                    •   The control environment 12
                    •   Controls to ensure compliance with Disaster Recovery program requirements
                    •   Controls to ensure compliance with Federal and State procurement requirements
                    •   Financial controls
                    •   Monitoring controls
                    •   Computer system access controls

                    We assessed the relevant controls identified above.

                    A deficiency in internal controls exists when the design or operation of a control
                    does not allow management or employees, in the normal course of performing their
                    assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
                    impairments to effectiveness or efficiency of operations, (2) misstatements in
                    financial or performance information, or (3) violations of laws and regulations on a
                    timely basis.




12
       Control environment – the overall attitude, awareness, and actions of directors and management regarding the
       internal control system and its importance to the entity.


                                                          20
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

             •   The State did not have controls to ensure that its professional services contracts
                 were procured in compliance with Federal and State procurement regulations
                 (finding 1).
             •   The State lacked controls to ensure that its contracts did not contain provisions
                 prohibited by HUD’s CDBG Disaster Recovery program rules (finding 1).
             •   The State lacked financial controls to ensure that its contractor supported and
                 properly allocated its costs (finding 1).
             •   The State’s control environment was lacking as management disagreements
                 prevented the State from monitoring its contracts (finding 2).
             •   The State’s control environment was lacking as management overrode staff
                 concerns and system controls by allowing the contractor access to its and HUD’s
                 computer systems (finding 2).




                                               21
                                               APPENDIXES

Appendix A

                      SCHEDULE OF QUESTIONED COSTS
                     AND FUNDS TO BE PUT TO BETTER USE


     Recommendation            Ineligible 1/      Unsupported 2/        Unreasonable or         Funds to be put
            number                                                       unnecessary 3/         to better use 4/
                     1B            $919,570
                     1C                                $7,599,747
                     1D                                                         $542,477
                     1E                                                                             $75,009,910

                 Totals            $919,570            $7,599,747               $542,477            $75,009,910




1/    Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the auditor
      believes are not allowable by law; contract; or Federal, State, or local policies or regulations.
2/    Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or activity when we
      cannot determine eligibility at the time of the audit. Unsupported costs require a decision by HUD program
      officials. This decision, in addition to obtaining supporting documentation, might involve a legal interpretation
      or clarification of departmental policies and procedures.
3/    Unreasonable or unnecessary costs are those costs not generally recognized as ordinary, prudent, relevant, or
      necessary within established practices. Unreasonable costs exceed the costs that would be incurred by a prudent
      person in conducting a competitive business.
4/    Recommendations that funds be put to better use are estimates of amounts that could be used more efficiently if
      an OIG recommendation is implemented. These amounts include reductions in outlays, deobligation of funds,
      withdrawal of interest, costs not incurred by implementing recommended improvements, avoidance of
      unnecessary expenditures noted in preaward reviews, and any other savings that are specifically identified. In
      this case, it represents a deobligation of contract funds.



                                                          22
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         23
                        OIG Evaluation of Auditee Comments

Comment 1   We acknowledge the General Land Office’s response and appreciate its efforts to
            address the issues identified in this report.




                                           24
Appendix C

             HUD COMMENTS




                  25
26
